                         CLOSEOUT FOR M93120061


      This.case was brought to OIG on November 17, 1993, when .m
,                 ~irector of the Division ofB-A
                                                 informed us of an
 allegation that a proposal to NSF misrepresented the credentials of
 the proposed PI.     Attached are the OIG investigation report,
 including its appendices; the memorandum from the NSF's
 adjudicating official to the Inspector General announcing her
 decision in this case; and the letter of reprimand from NSF to the
 subject. These documents explain the actions subsequently taken by
 OIG and NSF in this case.                                 ,a




cc:   Deputy AIG-0, IG




                              page 1 of 1
                               NSF OHG REPORT



                        QIG Case Number ~ 3 1 2 0 0 6 1




This document is loaned to you for official use only. It remains the property of the Office
of Inspector General. It may not be reproduced. It may be disclosed outside of NSF only
by the Inspector General, pursuant to the Freedom of Information and Privacy Acts, 5
U.S.C. $9552, 552a.
w
   REPORT OF INVESTIGATION INTO AN ALLEGATION OF MISCONDUCT IN
                     SCIENCE AND ENGINEERING
     The Office of Inspector General ( O I G ) has determined,that
                (the subject) on two occasions submitted proposals
that misrepresented his credentials in that they included a resume
claiming that he had earned a B.S. degree. This conclusion is
based on an investigation performed by O I G .
                                                                  -
                                                  O I G recommends that
NSF find that the subject committed misconduct as defined in NSF1s
regulation on Misconduct in Science and Engineering and take the
following actions as a final disposition in this case. The subject




                                                      -
should be told that NSF has made a finding of misconduct and should
receive a letter of reprimand from the NSF Office of the Director.
The subject should be required, for a period of one year, when he
submits proposals to NSF, to certify to O I G that all information in
his proposals is correct to the best of his knowledge.
                  OIG's   INQUIRY and INVESTIGATION
    q-',                                            b-d
                          Director of the Division of
                                             at NSF, informed O I G of
an allegation that the subject had misrepresented his educational
background in a proposal to NSF.                       had received
information from the subject's former employer,
0,           that the company had discovered the misrepresentation
and that the company, as a result, took steps to terminate the
subject1s employment. O I G later learned from the subject1s manager
at the company that the subject had been permitted to resign and
had not been officially dismissed.
                                                             I




m-   O I G examined two proposals that the company submitted to NSF
with the subject as principal investigator.
           entitled
                                                   These were 0



     'shortly before these two proposals were submitted, the company
nominated the subject to NSF as a replacement P I on two awards
               -
after the orisinal                                       - -
                     P I for these awards left the comDanv.      The
awards were                    entitled
                           - -          entitled .
 refused to accept the subject as replacement P I on the first of
these awards, where^^^ believed that the subject was not suitable
because the P I needed excellent technical credentials and a proven
ability to lead technically innovative projects. NSF agreed to
                              page 1 of 3
Both contained identical resumes (copy attached) representing the
subject as having received a B.S. degree in Biology from 0
                             explaining the qualifications of key
personnel, the              (page 9) also represents the subject as
holding this                        . Both proposals contain signed
certifications by the subject stating that "the statements herein
(excluding scientific hypotheses and scientific opinions) are true
and completeN and that "1 understand that the willful provision of
false information  .  . . in this proposal or any communication
submitted to NSF is a criminal offense."
     OIG wrote to the subject, who in his response admitted that he
did not in fact hold a B.S. degree. He characterized his actions
as "stupid and regrettableu and asked NSF to respond to them with
"leniency and mercy." A copy of the subject's letter is attached.
                          OIG' S ANALYSIS
     For NSF to make a finding of misconduct, a preponderance of
the evidence must show that the subject committed a culpable act
with a culpable state of mind. OIG believes that the preponderance
of the evidence indicates that he knowingly misrepresented himself
as holding a B.S. degree, and that this act is misconduct under
NSF1s regulation on Misconduct in Science and Engineering. NSF's
regulation defines misconduct        in part     as   "fabrication,
falsification, plagiarism, or other serious deviation from accepted
practices in proposing . .     .  activities funded by NSF" (45
C.F.R. §689.1(a) (I)), and we believe the subject's act clearly
falls within this definition.
     It is clearly inappropriate to misrepresent one's credentials.
Possession of formal educational credentials is usually a
significant qualification for performing scientific work. In this
case, the subject's twenty-five years of experience in working with
computers were probably far more relevant to assessing his
qualifications for the proposed work than his alleged possession of
a B.S. degree in an unrelated scientific discipline. Nonetheless,
the rule against misrepresenting credentials is important in the

accept the subject as PI on the second award, where he would
                                                    institutions in
the subject's home state. The NSF program manager told OIG that
NSF considered the subject's managerial experience adequate to this
task and that NSF did not believe that a technically innovative
scientist was required for this position. According to the program
manager, NSF1s decisions were based on the subject's work
experience and were unrelated to the subject's educational
qualifications. At the time NSF made these decisions, it was
unaware that'the subject's resume contained erroneous information
about his educational background. The subject's proposals involved
continuing the work that had been done on these awards.
                           page 2 of 3
scientific community, regardless of whether, in a particular case,
the misrepresentation would have been material to NSF decisions
about a principal investigator's competence to perform the work.
Violating this rule, especially after certifying to the truth and
completeness of the statements in one's proposal, is a serious
matter. The subject obviously knew that his statement about his
credentials was incorrect when he made it.
                   OIG'S   RECOMMENDED DISPOSITION
     Under S689.2 (b) of NSF' s misconduct in science and engineering
regulation, upon making a finding of misconduct, NSF, in
determining what actions it should take, must consider the
seriousness of the misconduct. This includes considering the state
of mind with which the subject committed misconduct and whe,therthe
misconduct "was an isolated event or part of a pattern." " W e have
already explained why we conclude that the subject's action is a
serious deviation from accepted practice and hence is misconduct;
this section explains OIG1s recommended actions in light of our
assessment of the seriousness of the subject s misconduct, i .e ., of
how serious this instance of misrepresenting credentials is in
relation to other instances.
     The misrepresentation in this case involves a credential that
is not directly relevant to the proposed work and that is less
important than the subject's other credentials e . , his work
experience) .   In the subject's area of expertise, formal
educational credentials are probably less important than they are
in other areas of science and engineering. These considerations,
however, do not negate the basic fact: the subject lied to NSF
about his educational credentials.                        P

     There are two instances of misrepresentation. The. second
occurred soon after the first.     The subject's resume was not
revised between these two instances. OIG believes that this is
better understood as one incident of misconduct, manifested in two
nearly simultaneous proposals, than as part of a pattern of
misconduct.
     In response to the subject's misconduct and to emphasize the
importance that NSF places on truthful representations in proposals
and other documents submitted to NSF, we recommend that the subject
be sent a letter of reprimand, which is a Group I action (see
S689.2 (a) (1) (i)) . We recommend that for a period of one year the
subject be required, when he submits proposals to NSF, to,certify
to OIG that all information in his proposals is correct to the best
of his knowledge. This is also a Group I action (see §689.2(a) (1)
(ii)). Because the subject has already lost a long-held job as a
direct result of his misrepresentation to NSF, we believe
significantly more severe actions by NSF would be inequitable in
this case.

                              page 3 of 3
Curriculum Vitae and Qualifications of
       Key Personnel Omitted
                      NATIONAL SCIENCE FOUNDATION    '

                          4201 WILSON BOULEVARD
                         ARLINGTON, VIRGINIA 22230


                                     August 23, 1995


  OFFICE OF THE
 D E P W DIRECTOR



CERTIFIED MAIL - - RETURN RECEIPT REQUESTED




Re:    Notice of Misconduct in Science Determination
Dear I               :                                   11


The National Science Foundation's Office of Inspector General
(OIG) issued an Investigation Report on March 31, 1995 in which
it found that you submitted two proposals to the National Science
Foundation in which you misrepresented your educational
credentials. (A copy of the investigative report is enclosed).
Specifically, you falsely claimed that you hold a B.S. degree
from
In a May 1, 1994 letter, you ad
Bachelor of Science Degree from
describe the misrepresentation
and "regrettable." In determining the proper sanction for;your
behavior, you requested that the Foundation take into account
that you have lost your job and suffered from humiliation as a
direct consequence of your falsification. The OIG subsequently
provided you with an opportunity to comment on their draft
investigative report. In a letter dated March 17, 1995, you
stated that you did not wish to comment on their findings.
Misconduct in Science and Proposed Sanctions
Under NSF's regulations, Nmisconductu is defined to include
"fabricat.ion,falsification, plagiarism, or other serious
deviation from accepted practices in proposing . . . activities
funded by NSF." 45 CFR §689.1(a). Your submission of proposals
in which you intentionally falsified your educational credentials
constitutes falsification and is a serious deviation from
accepted practices. Consequently, I find that you committed
misconduct in science.
NSF1s regulations establish three categories of actions (Group I,
11, and 111) that can be taken in response to a finding of
misconduct. 45 CFR §689.2(a). Group I actions, the least severe
of the sanctions, include letters of reprimand and requiring
certifications or assurances of accuracy or compliance with
particular requirements. 45 CFR §689.2(a)(1).            ,

In deciding what response is appropriate, NSF has considered the
seriousness of the misconduct; whether it was deliberate or
careless; whether it was an isolated event or part of a pattern;
and whether the misconduct affects only certain funding requests
or has implications for any application for funding involving the
subject of the misconduct finding. See 45 CFR S689.2(b).
You deliberately lied to the Foundation about your educational
credentials in the proposals and falsely certified to the truth
of your statements. However, the severity of the sanction is
mitigated by the fact that you lost a long-held job as a direct
consequence of your falsification.
Based on the above facts, we will require that if you are' the
principal investigator or co-principal investigator on any
proposal submitted to NSF prior to September 1, 1996, you must
separately certify, in writing, that all the information in the
proposal is correct to the best of your knowledge. The written
certification should be sent to the Assistant Inspector General
for Oversight, 4201 Wilson Boulevard, Arlington, Virginia, 2230,
at the same time that the proposal is submitted to NSF.
Procedures Governinq Appeals
You have 30 days after receipt of this letter to appeal this
decision in writing, to the Director of the Foundation. 45 CFR
§689.9(a). Any appeal should be addressed to the Director of the
National Science Foundation, 4201 Wilson Boulevard, ~rlington,
Virginia 22230. For your information, we are attaching a copy of
the applicable regulations. If you have any questions about the
foregoing, please call Lawrence Rudolph, Acting General Counsel,
at (707) 306-1060.
                               Sincerely,


                            Ann' C. Petersen
                            Deputy Director
